14a

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Palani Karupaiyan
— PETITIONER
(Your Name)
VS.
Department of Education, New York City

— RESPONDENT(S)
PROOF OF SERVICE
Palani Karupaiyan
, do swear or declare that on this date,
, 20__ , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Antonella Karlin,
100 Church St, New York,
NY 10007

copy is emailed to Antonella Karlin,
akarlin@law.nyc.gov

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

ojqAJ)'

Usps tracking 94001282 0633 53186828 87

,20_

/ss/ Palani Karupaiyan

